        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Need for Enhanced Surveillance
During the Yucca Mountain Project
Shut Down




OAS-SR-10-01                          JULY 2010
                                 Department of Energy
                                    Washington, DC 20585
                                          July 21, 2010



MEMORANDUM FOR THE UNDER SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: "Need for Enhanced Surveillance During
                        the Yucca Mountain Project Shut Down"

INTRODUCTION

The Nuclear Waste Policy Act Amendments of 1987 (Act) designated Yucca Mountain in
Southwestern Nevada as the site for a national geologic repository for high-level nuclear waste,
primarily the waste generated by U.S. commercial nuclear plants. The Department of Energy
(Department) assigned management of the program to the Office of Civilian Nuclear Waste
Management (OCRWM) and formally designated the project as the Yucca Mountain Project
(Project).

By every measure, this was to have been one of the largest efforts of its kind ever undertaken. In
fact, since 1987, the Department has spent in excess of $10.5 billion in pursuing the Project.
These funds have been used to:

   1. Evaluate the suitability of the site as repository, on a science and engineering basis;

   2. Make major real property infrastructure improvements at the site, including tunneling
      through the mountain and constructing buildings for office and ancillary purposes;

   3. Purchase significant quantities of personal property (computers, office furniture, etc.) to
      carry out ongoing operations; and,

   4. Develop and accumulate massive amounts of scientific and technical data concerning the
      Project and a variety of related issues.

In accordance with the Act, the Project has been funded primarily by a rate premium charged to
those customers of public utilities who relied on nuclear power for electricity generation.
Federal funding has supported aspects of the Project, but to a much lesser degree.

On June 3, 2008, the Department filed a license application with the Nuclear Regulatory
Commission (NRC) to begin construction of the repository.
PROJECT TERMINATION

In early 2009, the Department indicated that it intended to terminate the Project. As
memorialized in the Fiscal Year (FY) 2011 budget request, the Department has sought to have
virtually all funding for the Project eliminated and, in March 2010, moved to withdraw the NRC
license application, with prejudice. Pending approval, the Department is moving to shut down
all activities at the Yucca Mountain site by September 30, 2010.

Although the Office of Inspector General (OIG) takes no position regarding the policy judgment
to terminate the Project, we have been and remain concerned that any shut down be
consummated in a way that protects the national interest, including the interests of the ratepayers
and taxpayers who financed the Project. Other than the termination of the Department's Super
Conducting, Super Colliding Project in Texas in 1998, we know of no comparable single project
termination in the Department's recent history as consequential as Yucca Mountain, given the
importance of its intended mission, the massive investment in real and personal property and the
development and compilation of huge quantities of Project-related, intellectual property.

On February 23, 2010, the OIG announced an audit to determine whether OCRWM had
adequately planned for the Project's orderly shut down. On March 2, 2010, management
informed us that it was in the process of preparing a master plan to manage the shut down
process and that it would be completed by the end of March 2010. As described to us at the
time, the master plan would have addressed many of the topics proposed for our audit.
Management requested that the OIG defer its audit until the plan was completed.

We evaluated this request and, based on the circumstances, agreed to defer the audit until
completion of the plan. However, given the importance of this matter, it was our intent to restart
the audit once the plan was formulated. To that end, we monitored the progress of various
judicial challenges to the license application withdrawal, including a court-imposed one month
stay in shut down activities. On June 12, 2010, we met with OCRWM officials to determine the
status of shut down planning in anticipation of restarting our audit. We were told that the plan
was not complete and that events were moving so quickly that no further action on the master
plan was contemplated. Instead, management described its strategy for meeting the September
2010 Project shut down date, essentially concentrating on various functional activities at the
Project.

The Office of Inspector General issued a draft of this report for comment by Department
management. Management responded on July 19, 2010, providing details on its commitment to
close down the Project in a responsible and orderly manner. These comments, which are an
integral part of this report, are provided in their entirety in the attachment.

SHUT DOWN OVERSIGHT

In our view, and as OCRWM officials readily acknowledged, the development, implementation
and execution of an approved master plan or the equivalent for the shut down of Yucca
Mountain, specifically, one that addressed the key issues in an analytical, coordinated and
integrated manner would have been the preferred course of action given the magnitude of the

                                                 2
Project. Further, as virtually all parties recognized, such a planning framework would have
increased the likelihood of overall success of the effort. OCRWM officials told us that shut
down events had surpassed the planning initiative timeline and that the closing process was being
expedited to meet the scheduled completion date of September 30, 2010. To help compensate
for the lack of a master plan, OCRWM officials informed us that they had established focus
groups to manage shut down activities organized along functional lines: contracts; records,
including the Licensing Support Network; information technology; human relations; facilities
and property; security; and, science. OCRWM officials also described the assistance being
provided by Departmental organizations including the Office of General Counsel and the Office
of Legacy Management. Taken together, these efforts were significant; although they did not, in
our judgment, substitute for a master plan. Nonetheless, given the sequence of events and the
timeline for shut down completion, we have decided not to restart our audit.

LESSONS LEARNED

In recent years, the OIG has been involved in a number of Departmental actions with attributes
and characteristics similar to those that will be encountered during the Yucca Mountain shut
down. In the interest of helping to assure an orderly Project termination, we are providing the
Department's decision-makers with several of the most important lessons learned from these
events.

                               Disposition of Personal Property

The Project's inventory included approximately $6 million in personal property as of
September 30, 2009. The Department is in the process of excessing or disposing of this
inventory. Over time, the Department has experienced a number of instances in which both real
and personal property were disposed of uneconomically or inefficiently. For example, the OIG
reported in our audit report on "Property Disposals at the Yucca Mountain Project" (DOE/IG-
0664, September 27, 2004) that the Project disposed of approximately 9,000 metric tons of
property and the Government received no economic benefit from potentially reusable property.

Further, we have reported extensively on situations in which computers have been excessed
without taking the steps necessary to ensure that hard drives have been sanitized to prevent the
transfer of sensitive and/or personally identifiable data to new users. For example, we reported
on the lack of controls over the proper clearing, sanitization, and destruction of memory devices
(Excessing of Computers Used for Unclassified Controlled Information at Lawrence Livermore
National Laboratory, DOE/IG-0759, March 2007; and, Internal Controls for Excessing and
Surplusing Unclassified Computers at Los Alamos National Laboratory, DOE/IG-0734, July
2006). As noted in these reports, the Department has specific policies on how this is to be
accomplished. As a preventative measure, it is important that OCRWM fully employ the
appropriate computer disposition procedures.

The aggressive timeline for shut down of the Project makes it essential that the disposal of
personal property be managed with care to minimize the inherent vulnerabilities associated with
such an effort.



                                                3
                Maintaining Intellectual, Scientific and Technology Property

Since its inception, OCRWM has spent tens of millions of dollars on a wide variety of scientific
and engineering studies, analyses, evaluations and reviews. These have addressed site
characterization, topography, rock formation and water issues at Yucca Mountain itself, as well
as related Project activities. Preservation of this information in a useful form may be critically
important as the Department seeks the best path forward for resolving the U.S. nuclear waste
disposition issue, a recognized challenge of major significance. We were told that the
Department has proposed retaining data in the Licensing Support Network (which is the
information system designed to compile data in support of the NRC licensing effort) for 100
years and core samples from characterization efforts for 25 years. While a formal system was in
place to retain much of the information (specifically, the Licensing Support Network), we have
identified past issues with the management of electronic and other records of which officials
should be mindful. For example, we found that the Department had not developed methods for
archiving e-mail and other electronic information and in planning for the schedule and
disposition of records (The Retention and Management of the Department's Records, DOE/IG-
0685, April 2005). This report, and our ongoing follow-up work in this same area, suggest that
the Department needs to take special steps to ensure that the extraordinary documentary record
of the Project be safeguarded for future use.

                     Prime Contractor and Subcontractor Management

The Project's management structure included a number of Federal personnel both in Washington
and in Nevada. Consistent with the Department's general approach to mission activities, project
effort has largely been the work of a significant number of contractors and subcontractors. Even
in the normal course of government business, it is imperative that contracts and subcontracts be
closed out in an analytical, thoughtful way to protect the interests of U.S. taxpayers. This
includes the appropriate resolution of any contractor-incurred questioned or unallowed costs. In
a situation such as the shut down of Yucca Mountain, where over $10 billion has been spent and
the process is proceeding on an expedited basis, employing a thorough, comprehensive and
complete contract close out process takes on greater importance than normal. Related to this
concern, the OIG will shortly issue a separate report on questioned Project contractor-incurred
costs. These include:

       $100 million in costs claimed by Bechtel SAIC, the former management and operating
       contractor for the Project, during FY 2001 through 2009. These costs were previously
       questioned during audits by internal auditors and the Defense Contract Audit Agency but
       have not been resolved by OCRWM; and,

       $75 million in subcontract costs during FY 2004 through 2009 for which there is no
       evidence that Bechtel SAIC ever requested an audit of the incurred costs to determine
       allowability.

With at least $175 million in costs to be resolved, the Department needs to ensure that the close
out process is managed effectively and that all disallowed costs are settled and funds recouped;
the remaining required audits of costs incurred are completed; and, that all excess funds are de-

                                                4
obligated. As we have reported in the past, delays in the timely contract close out increase the
risk that contractors and subcontractors will be unable to produce documentation to support
previously submitted incurred cost claims. In a separate report to OCRWM management, the
OIG is making specific recommendations for the resolution of the current issues at Yucca
Mountain.

                        Contractor Employee Benefit Administration

The Department needs to exercise effective oversight of the administration of contractor
employee pensions and post retirement health benefits associated with the Project. As of
September 30, 2009, the Department's accumulated benefit obligation for Yucca Mountain
employee pensions and post retirement health benefits was estimated at approximately $20.1
million. Given the Department's significant overall unfunded liability for pensions and health
benefits (most recently estimated at $24.6 billion) and the negative impact contributions to those
plans can have on operational tempo, the settlement with the Yucca Mountain contractors
regarding pension and health benefits obligations needs intense scrutiny by OCRWM
management.

Further, with regard to the general question of contractor employee benefits, at other
Departmental sites, the OIG has raised recent concerns about the propriety of the severance
payments made to contractor personnel and the consistency in the amounts of severance pay
available to separated employees (Contractor Severance Plans at the Department of Energy,
OAS-L-09-04, February 12, 2009) whose service at Departmental facilities or sites was no
longer needed. Based on this experience, to the extent that the severance payments are utilized
as the Project is terminating, the Department needs to ensure that such payments to separating
contractor employees are consistent with existing contract provisions.

PATH FORWARD

The Department has taken a number of actions designed to bring the Project to closure.
However, given the lack of an approved master plan to manage this process and the press of a
very ambitious shut down schedule, special attention by senior level Department management
will be necessary if the process is to be an orderly one. Although no recommendations are being
made, we are hopeful that the consideration of reported past experiences will be helpful as this
process moves forward.

cc:    Assistant Secretary for Nuclear Energy
       Chief of Staff
       Acting Director, Office of Civilian Radioactive Waste Management
       Director, Office of Legacy Management
       Manager, Oak Ridge Office

Attachment




                                                 5
    Attachment




6
    Attachment (continued)




7
                                                          IG Report No. OAS-SR-10-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
